AFFIDAVIT OF SERVICE

STATE OF NEW YORK

)
ss.:
COUNTY OF NEW YORK )
DONALD THORESEN, being duly sworn, deposes and says:
I am not a party to this proceeding, am over eighteen years of age, and reside in
Kings County, State of New York.
On February 6, 2020, I served the annexed Letter of Edward H. Rosenthal to the
Clerk of the Court, dated February 6, 2020, upon:
Maurice Harmon, Esq.
Harmon Seidman & Bruss, LLC
101 South Third Street
Suite 265
Grand Junction, Colorado 81501
(Tracking No. 777708834765)

by Federal Express Overnight Delivery by placing a true copy of same in in a Federal
Express envelope and by causing said envelope to be retrieved by a Federal Express
employee for overnight delivery.
In addition, on February 6, 2020, I served the annexed Letter of Edward H.
Rosenthal to the Clerk of the Court, dated February 6, 2020, upon Maurice Harmon by
electronic mail by e-mailing a true copy of sa

to mauriceciliarmonscidman.com.

Donald Thoresen
Sworn to before me this
611i day of February, 2020

N

y Public
JOSHUA M.
l01
NaryOP:uon
tiU

York

OunlItled In Queens Count), .0) rj
6,30,E

Commission Expires Feb.

